               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Motor Vehicle Accident Prevention
                 Program

                       Audit Report




                                         September 21, 2012

Report Number HR-AR-12-006
                                                                       September 21, 2012

                                            Motor Vehicle Accident Prevention Program

                                                           Report Number HR-AR-12-006




BACKGROUND:
The U.S. Postal Service operates a fleet        employees and the public, and enhance
of about 215,000 vehicles, with over            the Postal Service brand.
300,000 authorized drivers. During fiscal
years 2010 and 2011, these drivers had          WHAT THE OIG RECOMMENDED:
over 20,000 accidents each year. Motor          We recommended management provide
vehicle accidents result in medical costs       supplemental guidance to area and
to employers, legal expenses, property          district managers to enforce
damage, and lost productivity. They also        requirements for supervisors to adhere
drive up the cost of benefits such as           to motor vehicle safety procedures, to
workers’ compensation, Social Security,         include conducting driving observations,
and private health and disability               ensuring drivers perform vehicle safety
insurance.                                      inspections, and performing quarterly
                                                driving privilege checks.
The Postal Service’s Safe Driver
Program established policies and                We also recommended management
guidelines to ensure that its drivers are       provide periodic refresher training to
equipped to drive safely, comply with           supervisors on the Safe Driver Program
Department of Transportation                    and ensure that employees performing
regulations, and collect and deliver mail       driving observations take the Driver
efficiently. Our objective was to assess        Observation training course. Finally, we
internal controls over motor vehicle            recommended management establish
safety.                                         and implement proactive monitoring
                                                processes that include using
WHAT THE OIG FOUND:                             Department of Motor Vehicles’
While the Postal Service has                    databases to ensure the validity of
established procedures to monitor and           driver’s licenses for employees in driving
oversee motor vehicle safety,                   positions.
supervisors did not always follow
prescribed procedures. We identified            Link to review the entire report.
issues relating to driving observations,
vehicle safety inspections, and
monitoring of driving privileges. As a
result we identified $97.7 million in
assets at risk due to inadequate controls
over motor vehicle safety. Efforts to
prevent motor vehicle accidents help
reduce costs, promote safety for
September 21, 2012


MEMORANDUM FOR:            DEBORAH GIANNONI-JACKSON
                           VICE PRESIDENT, EMPLOYEE RESOURCE
                           MANAGEMENT

                           DEAN GRANHOLM
                           VICE PRESIDENT, DELIVERY AND POST OFFICE
                           OPERATIONS




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – Motor Vehicle Accident Prevention
                           Program (Report Number HR-AR-12-006)

This report presents the results of our audit of the U.S. Postal Service’s Motor Vehicle
Accident Prevention Program (Project Number Project 12YG016HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, director,
Human Resources and Security, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Vice Presidents, Area Operations
    Tim O’Reilly
    Corporate Audit and Response Management
Motor Vehicle Accident Prevention Program                                                                          HR-AR-12-006




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Observation of Driving Practices ..................................................................................... 2

Vehicle Safety Inspections .............................................................................................. 4

Monitoring of Driving Privileges ....................................................................................... 6

Recommendations .......................................................................................................... 7

Management’s Comments .............................................................................................. 7

Evaluation of Management’s Comments ......................................................................... 8

Appendix A: Additional Information ............................................................................... 10

   Background ............................................................................................................... 10

   Objective, Scope, and Methodology .......................................................................... 11

   Prior Audit Coverage ................................................................................................. 14

Appendix B: Other Impacts ........................................................................................... 15

Appendix D: Management’s Comments ........................................................................ 17
Motor Vehicle Accident Prevention Program                                                                 HR-AR-12-006




Introduction

This report presents the results of our audit of the U.S. Postal Service’s Motor Vehicle
Accident Prevention Program (Project Number Project 12YG016HR000). Our
objective was to assess the Postal Service’s internal controls over motor vehicle safety.
This self-initiated audit addresses operational risk. See Appendix A for additional
information about this audit.

The Postal Service operates a fleet of about 215,000 vehicles with over 300,0001
employees authorized to operate them. In both fiscal years (FYs) 2010 and 2011, the
Postal Service experienced about 80,000 accidents2 with motor vehicle accidents
accounting for 25 percent of them.

The Postal Service’s Safe Driver Program establishes policies and guidelines to ensure
that Postal Service drivers are equipped to drive safely, comply with Department of
Transportation regulations, and collect and deliver mail efficiently. However, Postal
Service drivers, over the course of FYs 2010 and 2011, had over 40,000 motor vehicle
accidents, which averages 9.2 accidents per million miles driven. Similarly, in FYs 2008
and 2009, Postal Service drivers had over 41,000 motor vehicle accidents, which
averages 9.2 accidents per million miles driven.

Conclusion

The Postal Service has established controls to assist supervisors with monitoring and
overseeing motor vehicle safety; however, at the 233 locations we visited, supervisors
did not always follow prescribed procedures. Specifically, they did not always conduct
driving observations and document them on PS Form 4584, Observation of Driving
Practices; provide adequate oversight to ensure carriers performed vehicle inspections;
or perform quarterly checks of driving privileges. Additionally we found that the driver’s
license quarterly checks are ineffective in ensuring that employees have valid and
current licenses.

We identified $97.7 million in assets at risk due to inadequate controls over motor
vehicle safety. Efforts to prevent motor vehicle accidents help reduce costs, promote
safety for employees and the public, and enhance the Postal Service brand.




1
  This includes 183,774 city delivery carriers; 7,064 motor vehicle operators; 66,186 rural delivery carriers; and
50,349 rural part-time carriers.
2
  The 80,000 accidents include motor vehicle, natural event, and industrial accidents.
3




                                                           1
                                                Restricted Information
Motor Vehicle Accident Prevention Program                                                         HR-AR-12-006



Observation of Driving Practices

At the 23 locations we visited, supervisors should have conducted a minimum of 7,280
driver observations4 during FYs 2010 and 2011 to ensure carriers were driving
safely. At seven5 of the 23 locations supervisors did not perform any observations
while supervisors at the remaining 16 locations performed well below the required
number of observations.6 Collectively, supervisors at the 16 locations completed a total
of 1,546 driving observations, which is 21.2 percent of the required number of
observations. None of the sampled facilities completed the required minimum
observations (see Table 1).




4
 Driver observation entails supervisors performing a required number of observations and completing PS Form 4584,
Observation of Driving Practices, for each driver under their direct supervision.
5


6
    Handbook EL-804, Safe Driver Program, Section 14.141, Observation of Driving Practices.


                                                          2
Motor Vehicle Accident Prevention Program                                                            HR-AR-12-006



                              Table 1: Driver Observations by Facility

                                                      Required
                                                      Minimum                 Count of             Percentage
                   Facility
                                                      Number of             Observations           Compliant
                                                     Observations
                                                              352                   60                 17.0%
                                                              128                   30                 23.4%
                                                              180                   30                 16.7%
                                                              428                   3                   0.7%
                                                              400                   0                   0.0%
                                                              228                   0                   0.0%
                                                               80                   0                   0.0%
                                                              644                   0                   0.0%
                                                              212                   0                   0.0%
                                                              188                   0                   0.0%
                                                              752                  389                 51.7%
                                                              388                   24                  6.2%
                                                              352                  226                 64.2%
                                                              272                   0                   0.0%
                                                              564                   98                 17.4%
                                                              132                   30                 22.7%
                                                              196                   25                 12.8%
                                                              236                   86                 36.4%
                                                               68                   21                 30.9%
                                                              164                   25                 15.2%
                                                              132                   62                 47.0%
                                                              820                  198                 24.1%
                                                              364                  239                 65.7%
    Total                                                    7,280                1,546                21.2%
Source: U.S. Postal Service Office of Inspector General (OIG) analysis.

Additionally, supervisors did not consistently complete the observations as required. For
example, supervisors are required to observe at least five separate driving categories,
such as parking, backing, steering, signaling, and stopping.7 Of the 1,546 observations
by Postal Service supervisors, we noted that 573 (or 37 percent) did not review five
separate diving categories as required, while 973 (or 63 percent) reviewed at least five
driving categories as required (see Chart 1).


7
  PS Form 4584, page 1. Other driving categories include responsiveness to weather, vehicle security, speed,
intersections, and attention to children/pedestrians.




                                                         3
Motor Vehicle Accident Prevention Program                                     HR-AR-12-006




                      Chart 1: Driver Observations Completed as Required




Source: OIG data analysis.

Based on the observations supervisors conducted, we determined they observed over
300 unsafe driving practices; however, they did not schedule any of the drivers for
Driver Improvement training, as required. Our analysis of training records revealed that
only 28 of the 70 managers we interviewed (40 percent) had taken Driver Observation
training.

The supervisors stated that the reasons they did not consistently perform driving
observations include management turnover and competing tasks, such as
monitoring wait times at the retail window, overseeing Express Mail® delivery
requirements, and handling labor issues. In addition, most of the supervisors stated they
were working 10-hour days and were still unable to get everything done, and were
unaware they needed to observe five driving categories when completing an
observation.

Postal Service policy requires supervisors to observe drivers with more than 2 years
of experience semiannually and drivers with less than 2 years of experience (or
non-career status employees) quarterly and states that supervisors and others who
conduct employee driver observations should receive appropriate training.8 In addition,
Postal Service policy states that supervisors must notify the Driving Safety instructor
promptly of unsafe driving observations that require driver improvement training and
provide a copy of PS Form 4584.9 By not performing driving observations, supervisors
were not taking proactive measures to identify and re-train unsafe drivers, which would
help prevent or reduce motor vehicle accidents.

Vehicle Safety Inspections

At 1410 of the 23 locations we visited, supervisors did not provide adequate oversight to
ensure that carriers performed vehicle inspections. Interviews with carriers at the
8
    Handbook EL-804, Section, 14.143, Learning to Observe Drivers.
9
    Handbook EL-804, Section 35.354, Responsibilities.
10



                                  .


                                                         4
Motor Vehicle Accident Prevention Program                                                             HR-AR-12-006



Columbia Heights Station revealed that management did not allow them time to perform
vehicle inspections. Carriers at the Fort Washington Post Office stated that they recently
started performing inspections again. In addition, at 1811 of the 23 locations we visited,
we could not locate accident reporting kits12 in Postal Service vehicles or they were
unusable. See Table 2 for examples of unusable kits.

                            Table 2: Unusable Accident Reporting Kits




            Montgomery Village                           Fort Washington
           Source: Photograph on March 21, 2012.

The supervisors stated that carriers did not perform vehicle inspections as required
because in the past it was difficult to get them back to work after the inspections. The
supervisors also stated that they did not oversee vehicle safety inspections because
they had to complete morning responsibilities, such as measuring mail or covering sick
calls.

Postal Service policy states that supervisors must ensure that all carriers perform daily
vehicle inspections before driving a Postal Service-owned or leased vehicle.13 In
addition, the Postal Service vehicle safety check requires Postal Service vehicles to
contain an accident reporting kit.14 Vehicles not properly inspected could be operated
with an undetected safety hazard, which could result in a preventable motor vehicle
accident. Also, missing or unusable accident investigation kits could result in carriers
not having the resources to capture pertinent information at the time of an accident.




11




12
   The accident kit contains Standard Form 91, Operator’s Report of Motor Vehicle Accident, Pencil, Chalk, and local
instructions.
13
   Handbook EL-801, Supervisor’s Safety Handbook, Section 3.2, Defective Equipment and Machinery.
14
   Notice 76, Expanded Vehicle Safety Check, reference number 14.


                                                         5
 Motor Vehicle Accident Prevention Program                                                             HR-AR-12-006




 Monitoring of Driving Privileges

 We determined that supervisors at 17 locations15 we visited did not always perform the
 quarterly driving privilege checks during FYs 2010 and 2011. Supervisors should have
 performed 14,679 drivers’ license checks during FYs 2010 and 2011, but only
 performed 2,990 (or 20 percent) checks. A recent driver’s license check at the Columbia
 Heights Station identified two letter carriers with revoked or suspended licenses who
 had been operating Postal Service vehicles. Additionally, we determined the existing
 method for verifying the validity of employees’ driver’s licenses is not effective.
 Beginning in February 2012, the New York District Safety Unit validated employees’
 driver’s licenses against the New York State Department of Motor Vehicles (NY DMV)
 database at three16 of the four facilities we visited. They identified two employees at the
 Times Square Station whose driver’s licenses were revoked, yet they had driving
 privileges and continued to drive Postal Service vehicles. In the Safety Toolkit17
 management stated that they verified on various dates the two employees had valid
 driver’s licenses (see Table 3).

                                   Table 3: Driving Privilege Records

                                                  Date Through
                                                                                Dates for Which
                                                     Which
                                License                                     Documentation Supports
          Name                                     Employee
                                 Status                                    Management’s Verification of
                                                  Drove Postal
                                                                           Employees’ Driver’s Licenses
                                                 Service Vehicle
                             Revoked:                                       12/09/10, 01/15/11, 04/25/11,
 Employee #1                                     11/8/10-05/15/12
                             11/08/10                                          08/30/11, and 11/29/11
                                                                            09/14/09, 12/21/09, 03/13/10,
                             Revoked:                                       05/11/10, 09/14/10, 12/09/10,
 Employee #2                                     9/10/09-06/15/12
                             09/10/09                                       02/14/11, 04/19/11, 08/31/11,
                                                                               11/28/11, and 02/09/12
Source: OIG data analysis.

 Several supervisors at the sites visited stated they performed the quarterly checks, but
 did not record the information and some supervisors stated they were unaware of the
 required frequency. As a result, four employees with revoked or suspended driver’s
 licenses continued to drive Postal Service vehicles to perform their jobs. In addition, the
 New York District officials did not use the NY DMV database to verify that employees in
 driving positions maintained current and valid driver’s licenses.



 15




      .
 16
 17
   The Safety Toolkit is an interactive management tool Postal Service officials use to manage the health and safety
 program.


                                                          6
Motor Vehicle Accident Prevention Program                                      HR-AR-12-006



Postal Service policy states that to verify the existence of current and valid licenses,
supervisors must require each driver to produce his or her state driver’s license or
commercial driver’s license once every quarter. If a Postal Service driver fails to provide
evidence of a current and valid state driver's license, the supervisor must suspend or
revoke the driver’s Postal Service driving privileges until verifying the existence and
validity of the license.18 We also determined that, although a driver can produce a
driver’s license that, on the surface, appears to be valid, states sometimes revoke or
suspend driving privileges without physically taking an individual’s license from them.
The only way the Postal Service would know that a license has been suspended or
revoked would be if the individual disclosed that information or if management checked
state DMV records. Postal Service employees operating vehicles without a valid driver’s
license expose the Postal Service to increased liability in the event of an accident. The
Postal Service could also be subject to potential negative publicity that could impact its
brand.

Recommendations

We recommend the vice president, Delivery and Post Office Operations, in coordination
with the vice president, Employee Resource Management:

1. Provide supplemental guidance to area and district level managers to ensure they
   enforce the requirements for supervisors to adhere to motor vehicle safety
   procedures, to include conducting driving observations, ensuring drivers perform
   vehicle safety inspections, and performing quarterly driving privilege checks.

2. Provide periodic refresher training to supervisors on the Safe Driver Program and
   ensure employees performing driving observations take the Driver Observation
   training course.

3. Establish and implement proactive monitoring processes that include using
   Department of Motor Vehicles’ databases to validate driver’s licenses for employees
   in driving positions.

Management’s Comments

Management agreed with recommendations 1 and 2 but disagreed with
recommendation 3. In addition, management did not agree with the $97.7 million in
assets at risk reported.

Regarding recommendation 1, management stated they will communicate to each office
the importance of monitoring employees’ safety performance. Employee Resource
management will add to the safety Performance Evaluation Guide monitoring and
measurement criteria. Additionally, management stated they have distributed a safety
poster for all facilities nationwide, reminding employees of their responsibilities to
always carry a valid driver’s license when driving on Postal Service business and to
18
     Handbook EL-804, Section 41.412, Supervisor Responsibilities.


                                                          7
Motor Vehicle Accident Prevention Program                                      HR-AR-12-006



notify their supervisor if their license is suspended. They will continue to review and
monitor carrier adherence to the requirements for performing vehicle inspections and
supervisors’ adherence to the requirements for conducting work observations and
performing quarterly driving privilege checks. Management expects to implement
corrective actions for recommendation 1 by October 30, 2012.

Regarding recommendation 2, management stated that newly promoted and existing
managers who have not participated in the Safe Driver Program will take the course
before managing employees and by all delivery and Post Office Operations
management will take the Driver Observation course. They will use the Learning
Management System to monitor and track enrollment. Management expects to
implement corrective actions for recommendation 2 by June 30, 2013.

Management disagreed with recommendation 3, stating that they evaluated the
feasibility of using DMV databases to validate drivers’ licenses for employees in driving
positions and determined that it would be labor- and cost-prohibitive. Use of DMV data
requires a release form signed by the employee and the costs varies by state. With
425,000 potential drivers, the Postal Service estimated that the annual costs would be
over $19 million. Management stated that this sizable expenditure would have to be
justified to a greater extent to gain approval. They stated the Safe Driver Program
requires all drivers to inform their supervisors immediately if their state driver’s or
commercial driver’s license are suspended or revoked.

Management did not agree with the $97.7 million in assets at risk, stating the amount
represents the total vehicle asset value even though the audit clearly indicates required
activities were not always performed and the amount includes total vehicle asset values
plus the tort claim disbursements for 2 years. They further state that “no logic exists to
use this formula since the tort claim amount would also be a segment of the vehicle
asset value.” They also stated the “at risk” amount would assume the possibility exists
for a total vehicle asset loss due to failure to follow existing guidelines. See Appendix D
for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendations 1 and 2
and the corrective actions should resolve the issues identified in the report.

Regarding recommendation 3, we understand that some states require signed
employee release forms and charge a fee for access to DMV records. However, in the
interest of protecting the public, employees, the mail, and the Postal Service brand, the
Postal Service has an obligation to verify that employees operating its vehicles have
valid driver’s licenses. We maintain that management could reduce the Postal Service’s
risk exposure if they periodically obtained and reviewed state DMV records for these
employees and, based on our audit findings, we do not believe the current process
(which relies on self-reporting) is sufficient.




                                             8
Motor Vehicle Accident Prevention Program                                     HR-AR-12-006



Also, during our audit, we determined that not all states require employers to provide
release forms, and not all states charge a fee to government agencies to provide
access to DMV records. For example, the New York State DMV does not require
employers to obtain signed release forms for driver’s license information that qualifies
as permissible use under federal law; nor do they charge government agencies a fee for
DMV information. We will not pursue this recommendation through audit resolution.
However, we believe the Postal Service should, at a minimum, identify which states
don’t require the signed release and exempt government agencies from DMV fees and
establish an agreement with those states to periodically obtain employee driving
records.

Regarding management’s comments concerning the $97.7 million in assets at risk, we
used the value of the motor vehicle fleet as the value of the assets that are at risk when
policies and procedures that were put in place to prevent accidents and protect the
Postal Service are not being followed. Likewise, the motor vehicle tort claim payments
for FYs 2010 and 2011 were considered to be at risk because of the increased liability
the Postal Service is subject to when employees and supervisors are not adhering to
internal control procedures that were established to protect the interest of the Postal
Service, its employees, and the public. Regarding management’s comment that the tort
claims are a segment of the delivery fleet value – motor vehicle tort claims are
associated with damage to or loss of property, personal injury, or death of individuals
who are not Postal Service employees. These tort claims do not include any segment of
the Postal Service’s delivery fleet value.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                            9
Motor Vehicle Accident Prevention Program                                                               HR-AR-12-006



                                  Appendix A: Additional Information

Background

Motor vehicle accidents cost employers about $60 billion annually in medical costs,
legal expenses, property damage, and lost productivity. They drive up the cost of
benefits such as workers’ compensation, Social Security, and private health and
disability insurance. In addition, they increase the employer’s overhead costs for
administering these programs. The average crash costs an employer $16,500. An
employee who has an on-the-job crash resulting in an injury costs their employer
$74,000. When a fatality is involved, costs can exceed $500,000. No organization can
ignore a major problem that has such a serious impact on both personnel and the
company budget.19

The Postal Service’s Safe Driver Program establishes policies and guidelines to ensure
that Postal Service drivers are equipped to:

    Drive safely.
    Comply with Department of Transportation regulations.
    Collect and deliver mail efficiently.

The Postal Service operates a fleet of about 215,000 motor vehicles with over 300,00020
employees authorized to operate them. In both FYs 2010 and 2011, the Postal Service
experienced about 20,000 motor vehicle accidents accounting for 25 percent of all
accidents. See Table 4 for a breakdown of accidents by type and Chart 2 for the
monthly breakdown of motor vehicle accidents over FYs 2010 and 2011.

                       Table 4: Accident Type Details FYs 2010 and 2011

                Accident Type                                                  2010            2011
                1.Motor Vehicle                                              20,383          20,552
                2.Natural Event21                                                76              82
                3.Industrial22                                               59,427          59,585
                4.Other23                                                       531             637
                Total                                                        80,417          80,856
                Percentage of Motor Vehicle to Total                         25.3%           25.4%
               Source: Enterprise Data Warehouse (EDW), Accident Log Report.


19
   U.S. Occupational Safety and Health Administration, U.S. National Highway Traffic Safety Administration, Network
of Employers for Traffic Safety, Guidelines for Employers to Reduce Motor Vehicle Crashes, 2005.
20
   This includes 183,774 city delivery carriers; 7,064 motor vehicle operators; 66,186 rural delivery carriers; and
50,349 rural part-time carriers.
21
   A natural event accident is any occurrence limited solely to property damage caused by such natural events such
as hurricane, flood, lighting, earthquake, volcano, hail, and so forth.
22
   An Industrial accident is any work-related accident that is not a motor vehicle accident, such as falls and machinery
accidents.
23
   This code is used to identify incidents involving vandalism or where only a non-employee was in an accident on
Postal Service premises.


                                                          10
Motor Vehicle Accident Prevention Program                                             HR-AR-12-006




                      Chart 2: Motor Vehicle Accidents – FYs 2010 and 2011




Source: EDW, Motor Vehicle Accident Rate Report.

Objective, Scope, and Methodology

Our objective was to assess the Postal Service’s internal controls over motor vehicle
safety. Our review period included motor vehicle accidents that occurred over FYs 2010
and 2011, but excluded controls and accidents for contract drivers.

To accomplish our objective, we:

      Interviewed Postal Service Headquarters Safety officials to understand the
       processes used to prevent motor vehicle accidents.

      Analyzed motor vehicle accident data from the EDW Human Resource Health and
       Safety Folder to identify those performance clusters with high motor vehicle accident
       rates and those post offices with a high numbers of accidents.

      Randomly selected 10 of the top 20 performance clusters24 with the highest motor
       vehicle accident rates in FYs 2010 and 2011 and judgmentally selected the Capital,
       Chicago, New York, Santa Ana, and Seattle performance clusters because they had
       the highest number of accidents in their respective Postal Service areas.

      Selected 23 facilities with the highest number of accidents from the five judgmentally
       selected performance clusters (seven facilities from Capital and four facilities each
       from Chicago, New York, Santa Ana, and Seattle) for review. See Table 5 for the list
       of facilities visited.



24
     A category used to allow all finance numbers to roll up to a specific manager.


                                                            11
Motor Vehicle Accident Prevention Program                                                             HR-AR-12-006



    Tested controls at the 23 selected facilities through interviews with the supervisors
     and 2025 employees at each facility; review of documentation, specifically
     PS Form 4584; and observations of vehicle condition, the presence of vehicle
     accident kits, and the performance of vehicle inspections.

    Interviewed 20 employees at each of the 23 facilities to determine whether
     management performs driver’s observations, gives safety talks, has an effective
     vehicle repairs process, conducts vehicle inspections, and prioritizes safety over
     performance.

    Interviewed national and local union officials to obtain their views and expertise and
     collect feedback on how the Postal Service could improve its motor vehicle accident
     prevention program.

    Collected and summarized tort claim 26information for the 20 performance cluster
     universe.

    Collected and summarized the value of the delivery fleet for the 20 performance
     cluster universe.




25
  At the New York PFC we interviewed 15 employees at the Bronx-Parkchester and FDR stations.
26
  Tort claims are for damage to or loss of property, personal injury, or death to non-Postal Service personnel caused
by the negligent or wrongful act or omission of an employee while acting within the scope of employment.


                                                         12
 Motor Vehicle Accident Prevention Program                                         HR-AR-12-006



                                       Table 5: Facilities Visited

                    Performance
 Area                                    Facility                         City, State
                    Cluster
 Capital Metro      Capital              Capitol Heights Post Office      Capitol Heights, MD
 Capital Metro      Capital              Fort Washington Post Office      Fort Washington, MD
 Capital Metro      Capital              Montgomery Village Station       Gaithersburg, MD
 Capital Metro      Capital              Lanham-Seabrook Post Office      Lanham, MD
 Capital Metro      Capital              Laurel Post Office               Laurel, MD
 Capital Metro      Capital              Temple Hills Post Office         Temple Hills, MD
 Capital Metro      Capital              Columbia Heights Station         Washington, DC
 Great Lakes        Chicago              Chicago Central Annex            Chicago, IL
 Great Lakes        Chicago              Fort Dearborn Station            Chicago, IL
 Great Lakes        Chicago              Edgebrook Carrier Annex          Chicago, IL
 Great Lakes        Chicago              Southwest Carrier Annex          Chicago, IL
 Northeast          New York             Bronx Parkchester Station        Bronx, NY
 Northeast          New York             FDR Station                      New York, NY
 Northeast          New York             Manhattan Mail Collection Unit   New York, NY
 Northeast          New York             Times Square Station             New York, NY
 Pacific            Santa Ana            La Puente Post Office            La Puente, CA
 Pacific            Santa Ana            Orange Post Office               Orange, CA
 Pacific            Santa Ana            Torrance Post Office             Torrance, CA
 Pacific            Santa Ana            Upland Post Office               Upland, CA
 Western            Seattle              Bellevue Post Office             Bellevue, WA
 Western            Seattle              Seattle Terminal Station         Seattle, WA
 Western            Seattle              Snohomish Main Post Office       Snohomish, WA
 Western            Seattle              South Hill Branch                Puyallup, WA
Source: OIG date analysis from March 20 through June 8, 2012.

 We conducted this performance audit from February through September 2012 in
 accordance with generally accepted government auditing standards and included such
 tests of internal controls as we considered necessary under the circumstances. Those
 standards require that we plan and perform the audit to obtain sufficient, appropriate
 evidence to provide a reasonable basis for our findings and conclusions based on our
 audit objective. We believe that the evidence obtained provides a reasonable basis for
 our findings and conclusions based on our audit objective. We discussed our
 observations and conclusions with management on August 2, 2012, and included their
 comments where appropriate.

 We relied on data obtained from the EDW, specifically accident count data from the
 Human Resource’s Safety and Health folder. We reviewed a sample of hard copy
 accidents records in the Capital District to confirm the accuracy of the data in the EDW
 reports. Additionally we verified the accuracy of the data through discussions with



                                                       13
Motor Vehicle Accident Prevention Program                                         HR-AR-12-006



Postal Service personnel knowledgeable about the data. Consequentially we
determined the data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The U.S. Postal Service OIG did not identify any prior audits or reviews related to the
objective of this audit.




                                            14
Motor Vehicle Accident Prevention Program                                                              HR-AR-12-006




                                       Appendix B: Other Impacts

        Recommendations                   Impact Category                                  Amount
        1, 2, and 3                       Assets at risk27                                   $72,937,141
        1, 2, and 3                       Disbursements at risk28                             24,780,294
        Total                                                                                $97,717,435

    We selected the 20 performance clusters used in the other impact calculation due to
     their high number of accidents per million miles driven. We used the Motor Vehicle
     Accident Rate report from the EDW. We ranked performance clusters based on their
     accidents over the 2-year scope period, FYs 2010 and 2011.

    To determine the value of the delivery fleet, the team generated the Vehicle Asset
     Depreciation Expense report. This report was generated for the 20 districts in the
     audit's sample universe. The team used the remaining undepreciated value for all
     right-hand drive vehicles (Long-Life Vehicles and Flexiblue Fuel Vehicles) in all
     districts.29 The reports were generated in April 2012 and adjusted to reflect the
     depreciated value in July 2012.

    To determine the motor vehicle tort claim disbursements in FYs 2010 and 2011, we
     used the Financial Performance Report Builder to collect the disbursements for
     financial performance line 3M Accidents. We drilled down to the 5-digit sub-account
     level to capture only costs associated with 55107 – U.S. Government Owned Motor
     Vehicle Tort Claims and 55105 – Rural Carriers Motor Vehicle-Tort Claims.

We identified $97.7 million in safeguarding assets due to inadequate controls over
motor vehicle safety ($72.9 million in assets at risk for the value of the delivery service
fleet at the 20 performance clusters and $24.7 million in disbursements at risk for motor
vehicle tort claims in FYs 2010 and 2011). See Table 6 for other impact detail.




27
   Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
inadequate internal controls.
28
   Disbursements made where proper Postal Service internal controls and processes were not followed.
29
   In the Pacific Area we used the value of administrative vehicles because they do not have delivery operations at
the area office.


                                                          15
Motor Vehicle Accident Prevention Program                                HR-AR-12-006



                                    Table 6: Other Impacts

                                      Motor
                                                             Delivery
        Performance                VehicleTort                          Total Other
                                                              Fleet
        Cluster Name             Claims FYs 2010                          Impact
                                                              Value
                                     and 2011
Alaska                                   $578,331        $3,549,946      $4,128,277
Baltimore                               1,499,775         5,714,660       7,214,435
Capital                                 1,117,545         5,188,828       6,306,373
Caribbean                                 462,462           390,079         852,541
Chicago                                 1,474,019           178,887       1,652,906
Greater Boston                            898,656         5,837,491       6,736,147
Los Angeles                               923,239         3,412,132       4,335,371
Nevada-Sierra                             526,689         3,159,401       3,686,090
New York                                1,002,971             1,476       1,004,447
Northern New Jersey                     2,118,825         5,396,039       7,514,864
Northern Virginia                         608,980         2,849,712       3,458,692
Pacific Area                            4,148,315           180,000       4,328,315
Philadelphia Metro                      2,180,427         8,007,780      10,188,207
Portland                                  942,066         4,668,300       5,610,366
San Francisco                             630,147         3,189,443       3,819,590
Santa Ana                                 910,102         4,313,237       5,223,339
Seattle                                 2,138,991         7,943,334      10,082,325
Sierra Coastal                            873,321         3,639,055       4,512,376
Triboro                                 1,120,490         3,087,684       4,208,174
Westchester                               624,943         2,229,656       2,854,599
Total                                 $24,780,294       $72,937,141     $97,717,435
Source: EDW.




                                              16
Motor Vehicle Accident Prevention Program                     HR-AR-12-006



                          Appendix D: Management’s Comments




                                            17
Motor Vehicle Accident Prevention Program        HR-AR-12-006




                                            18
Motor Vehicle Accident Prevention Program        HR-AR-12-006




                                            19
